No. 20-101

In the Supreme Court of the United States
LLOYD HARRIS, PETITIONER,
v.
STATE OF MARYLAND
ON PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF SPECIAL APPEALS OF MARYLAND

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that
the Brief of the Maine, Vermont, and Washington
Associations of Criminal Defense Lawyers as Amici
Curiae in Support of Petitioner contains 5,993 words,
excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on October 5, 2020.
/s/ R. Stanton Jones
R. STANTON JONES
Counsel of Record
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
stanton.jones@arnoldporter.com
Counsel for Amici Curiae

